Audit Report




OIG-09-040
Treasury Has Made Progress in Implementing the Specified
Energy Property Grant Program

August 5, 2009




Office of
Inspector General
Department of the Treasury
Contents


Audit Report....................................................................................................1

    Background ...................................................................................................2

    Audit Results .................................................................................................3

        Treasury Has Made Progress in Implementing the Specified Energy
        Property Grant Program .............................................................................3

    Recommendations ..........................................................................................7


Appendices

Appendix 1:          Management’s Response...............................................................9
Appendix 2:          Major Contributors to This Report ................................................11
Appendix 3:          Report Distribution ..................................................................... 12



Abbreviations

    DOE                      Department of Energy
    OFAS                     Office of the Fiscal Assistant Secretary
    OIG                      Treasury Office of Inspector General
    OMB                      Office of Management and Budget
    OTA                      Office of Tax Analysis
    Recovery Act             American Recovery and Reinvestment Act of 2009




                         Treasury Has Made Progress in Implementing the Specified Energy                     Page i
                         Property Grant Program (OIG-09-040)
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                       August 5, 2009

                       Richard L. Gregg
                       Acting Fiscal Assistant Secretary
                       Department of the Treasury

                       This is the first report from our ongoing audit oversight of the
                       Department of the Treasury’s implementation of programs and use
                       of funds authorized by the American Recovery and Reinvestment
                       Act of 2009 (Recovery Act).1 The overall objective of our audit
                       oversight is to evaluate management’s accountability, control, and
                       oversight of Recovery Act funds and provide recommendations for
                       improving operations and preventing fraud, waste, and abuse with
                       respect to those funds. In this report, we provide our assessment
                       of Treasury’s preparedness to implement and operate a new
                       program to award grants, in lieu of tax credits, for specified energy
                       property consistent with Recovery Act requirements and Office of
                       Management and Budget (OMB) guidance.2

                       In brief, the Office of the Fiscal Assistant Secretary (OFAS) faces
                       serious challenges in standing-up and implementing the program for
                       responsibly distributing the estimated $1 billion of Recovery Act
                       funds for the specified energy property. At this time, more than
                       5 months since the requisite legislation was signed into law,
                       Treasury has made progress but not yet implemented an
                       operational program that fully meets Recovery Act and OMB
                       requirements.

                       We began our fieldwork in April 2009. The scope of our work
                       during April through June consisted of interviews of key Treasury

1
 Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009).
2
 The Recovery Act refers to this program as “Grants for Specified Energy Property in Lieu of Tax
Credits.” In its public announcements, Treasury refers to the program as “Cash Assistance for Specified
Energy Property in Lieu of Tax Credits.”

                       Treasury Has Made Progress in Implementing the Specified Energy           Page 1
                       Property Grant Program (OIG-09-040)
             personnel assigned to oversee the energy program; review of
             applicable guidance, agency-wide and program plans, and available
             documentation; and continuous correspondence/communication
             with congnizant Treasury officials. We were also included in daily
             conference calls between officials from Treasury, OMB, and
             program offices during which progress and issues with Treasury’s
             implementation of Recovery Act programs were discussed.

             We are conducting our ongoing audit oversight, and prepared this
             report, in accordance with the performance audit standards of
             generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain
             sufficient, appropriate evidence to provide a reasonable basis for
             our findings and conclusions based on our audit objectives. We
             believe that the evidence obtained provides a reasonable basis for
             our findings and conclusions based on our audit objectives.

Background
             The Recovery Act was signed into law on February 17, 2009, to
             provide relief to the ongoing economic crisis. Part of that relief
             consists of a grant program intended to encourage taxpayers to
             continue investing in renewable energy sources. Because the
             economic crisis had a significant negative effect on some
             taxpayers’ income, their ability to use tax credits to help finance
             such investments may be limited. Section 1603 of the Recovery
             Act provides for grants, in lieu of tax credits, to reimburse
             recipients for a portion of their expense for placing in service
             certain energy property. Qualifying property is specified in sections
             45 and 48 of the Internal Revenue Code of 1986. To be considered
             for assistance under this program, the Recovery Act requires that
             applications be received by Treasury before October 1, 2011.

             The Secretary of the Treasury is responsible for carrying out the
             requirements of section 1603 and is appropriated the funds
             necessary to do so. Treasury’s Office of Tax Analysis (OTA)
             estimates that this program will cost more than $1 billion and no
             ceiling has been set on the aggregate amount that can be awarded.
             Treasury has apportioned $346 million to meet expected awards in
             fiscal year 2009.


             Treasury Has Made Progress in Implementing the Specified Energy   Page 2
             Property Grant Program (OIG-09-040)
                       OFAS has been designated authority for administering and
                       managing the specified energy property program. In its program
                       plan, OFAS established what it considers a considerably
                       aggresseive milestone, of June 30, 2009, for making the
                       application package for specified energy property awards publicly
                       available on Treasury’s website3.

Audit Results

                       Treasury Has Made Progress in Implementing the Specified Energy
                       Property Grant Program

                       OFAS faces serious challenges in implementing the specified
                       energy property program to meet Treasury’s responsibilities under
                       the Recovery Act. During the more than 5 months since the law’s
                       enactment, OFAS has made progress but not yet implemented an
                       operational program. Additionally, OFAS has not adopted all
                       actions necessary to mitigate implementation risks as required by
                       OMB.

                       The following are among the risk mitigation actions listed in section
                       3.8 of OMB M-09-154 that are essential for OFAS to implement the
                       specified energy property program in an effective manner:
                       (1) determine an award methodology to allow recipients to begin
                       expenditures and activities as quickly as possible5, (2) engage in
                       aggressive outreach to potential applicants to begin the application
                       process for timely awards, (3) evaluate workforce needs in order to
                       appoint qualified grant officers and/or program managers, and
                       (4) identify mission-critical human capital needs for Recovery Act
                       implementation and assess the gap between the current workforce
                       and Recovery Act human capital requirements. To identify
                       workforce needs and gaps, the guidance directs agencies to use
                       competency-based workforce planning methodologies, drawing on
                       existing data available in their human resource information
3
  Recovery Act Web site for Treasury’s Cash Assistance for Specified Energy Property in Lieu of Tax
Credit Program is at http://www.recovery.gov/?q=content/program-plan&program_id=7685
4
  OMB M-09-15, “Updated Implementation Guidance for the American Recovery and Reinvestment Act
of 2009” (Apr. 3, 2009).
5
  Recipients of Recovery Funds under the Specified Energy Property Program are reimbursed an
applicable percentage of the expenses incurred for placing in service or beginning construction, during
2009 and 2010, of property qualifying under sections 45 and 48 of the Internal Revenue Code.

                       Treasury Has Made Progress in Implementing the Specified Energy            Page 3
                       Property Grant Program (OIG-09-040)
systems, learning management systems, competency assessment
survey results, and other data sources.

We found several areas of specific concern, discussed below, that
OFAS still needs to address.

Implementation Delays

In April 2009, OFAS consulted with the Department of Energy
(DOE) for advisory services in starting the specified energy property
program, and executed a memorandum of agreement (MOA)
between Treasury and DOE to obtain DOE’s technical assistance in
(1) developing the requirements for application documents,
(2) recommending application verification options, and
(3) assistance in reviewing applications. The MOA also required
DOE to provide scope and cost estimates for its services to be
provided during the program execution phase by May 15, 2009.
Furthermore, the MOA required DOE to provide Treasury a final
application package, along with options for reviewing and verifying
information to be provided by applicants, by June 1, 2009.

DOE was unable to meet the May 15 deadline to provide scope and
cost estimates because Treasury did not provide DOE necessary
and critical information. Specifically, a decision needed to be made
whether to design software to capture application data or to
purchase commercial software for that purpose and to determine
the number of technical staff required to review applications. These
factors must be identified before amending the MOA for the
specific work requirements and associated costs and DOE’s
development of a grant management system. In addition, there is
no documented plan to test the system before the June 30, 2009,
launch date established as a critical milestone by OFAS in its
program plan.

DOE provided a draft, rather than final, application package on
June 1, 2009. We reviewed the draft application form and found
that it did not incorporate all eligibility requirements provided in the
Internal Revenue Code and therefore have a concern that DOE and
OFAS may be interpreting the eligibility requirements of sections
45 and 48 differently than the Internal Revenue Service. We also
noted that the application package did not include the terms and


Treasury Has Made Progress in Implementing the Specified Energy    Page 4
Property Grant Program (OIG-09-040)
                     conditions of the award required by OMB M-09-15. A more
                     comprehensive application package was provided June 22, 2009.

                     On July 9, 2009, Treasury and DOE publicly announced that an
                     estimated $3 billion would be made available for the development
                     of renewable energy projects around the country under this
                     program in support of an estimated 5,000 bio-mass, solar, wind,
                     and other types of renewable energy production facilities. Treasury
                     also made available on its website the terms and conditions,
                     guidance, and a sample application in advance of the launch of a
                     web based application that would be made available “in the coming
                     weeks.”6

                     We did not review these material as part of the field work for this
                     report.

                     Resource Needs

                     OFAS has not provided adequate explanation of its staffing
                     requirements to implement and operate the specified energy
                     property program. It continues to rely principally on DOE, and with
                     or without DOE’s help, it is unclear how the potentially thousands
                     of applications of varying complexity for awards under this program
                     will be evaluated and managed.

                     Four OFAS staff are assigned to this program, on a part-time basis
                     because they also have responsibility for other Recovery Act
                     activities assigned to OFAS, primarily another grant in lieu of tax
                     credit program for low-income housing. OFAS also has limited
                     experience in implementing assistance programs and interpreting
                     provisions of the Internal Revenue Code related to specified energy
                     property. Although OFAS plans to outsource the application receipt
                     and review process to DOE, ultimately the responsibility for
                     application approvals and program management remain with
                     Treasury, through OFAS.

                     We were told that OFAS is not planning to hire additional staff or
                     augment staffing with contractors to run the program.


6
 The information was posted at www.treas.gov/recovery/1603.shtml. The website also stated that
Treasury was not accepting applications at this time.

                     Treasury Has Made Progress in Implementing the Specified Energy        Page 5
                     Property Grant Program (OIG-09-040)
                         No Risk Assessments

                         As of June 30, 2009, Treasury has not completed a program-
                         specific risk assessment and mitigation plan as contemplated in
                         sections 3.9 through 3.13 of OMB M-09-15. Treasury reported in
                         its program plan that program specific-risks would be identified and
                         documented, along with applicable current process internal controls
                         and existing controls, and that risks mitigation plans would be
                         developed by April 15, 2009, as part of its review process. During
                         program implementation, OMB requires agencies to undertake
                         efforts to identify, prioritize, and mitigate implementation risks
                         common to federal spending under the Recovery Act and any
                         agency-specific or program-specific risks. The completed
                         assessment would identify and document (1) program specific
                         risks; (2) applicable current process internal controls; (3)
                         assessment of program specific risks in view of existing controls;
                         and (4) steps to mitigate identified risks and their impacts.
                         Agencies are encouraged to leverage existing practices used to
                         perform assessments required by OMB Circular No.
                         A-123.7

                         We asked OFAS staff whether risk assessments associated with
                         the implementation of the specified energy property program had
                         been performed and were told that OFAS was working on it.
                         Further inquiry of OFAS staff revealed that OFAS had not
                         undertaken its responsibility to assess program specific risks. We
                         were told that OFAS was waiting on information in the finalized
                         MOA with DOE for the application review and award processes
                         before assessing Treasury’s program risks.

                         Failure to perform proper risk assessments and identification of
                         related mitigating controls prior to program implementation may
                         expose Treasury to higher risk of fraud, waste, and abuse.
                         Therefore, it is important to assess risks and develop controls early
                         to help prevent losses and inefficiencies during program award and
                         administration. The initial implementation risk assessment is crucial
                         for Treasury to identify potential problem areas before program
                         award and monitoring. We also believe that it is essential that


7
    OMB Circular No. A-123, “Management’s Responsibility for Internal Control” (Revised Dec. 21, 2004)

                         Treasury Has Made Progress in Implementing the Specified Energy         Page 6
                         Property Grant Program (OIG-09-040)
                       those risks be assessed promptly so that appropriate mitigating
                       controls can be considered as part of the planned MOA with DOE.8

                       Recommendations

                       We recommend that the Acting Fiscal Assistant Secretary do the
                       following:

                       1. Ensure that OFAS follows OMB guidance for identifying and
                          prioritizing potential risks to the specified energy property
                          program during the planning phase and develop associated
                          mitigating controls. OFAS should coordinate with Treasury’s
                          Office of Internal Control to leverage the risk assessment work
                          at the agency level.

                           Management Response

                           Management concurred with our recommendation and has taken
                           action by completing a risk assessment and a risk mitigation
                           plan.

                           OIG Comment

                           Management’s actions meet the intent of our recommendation.

                       2. Finalize the MOA with DOE for implementing the specified
                          energy property program and ensure that the eligibility
                          requirements are consistent with the approach taken by the
                          Internal Revenue Service. In the event that the planned MOA
                          with DOE is not finalized, ensure that OFAS pursues all options
                          for implementing the specified energy property program.

                           Management Response

                           Management concurred with our recommendation and has
                           finalized its agreement with DOE.




8
  As of July 9, 2009, the date of our audit exit conference on this report, OFAS officials stated that the
terms of the MOU had been agreed to but the document had not yet been signed by DOE.

                       Treasury Has Made Progress in Implementing the Specified Energy              Page 7
                       Property Grant Program (OIG-09-040)
    OIG Comment

    Management’s action meets the intent of our recommendation.

3. Identify and address OFAS workforce needs to properly
   implement and operate the energy property program using a
   structured approach as discussed in OMB M-09-15. A process
   should be implemented to periodically evaluate workforce needs
   through the life of the program and appropriate documentation
   should be maintained supporting the analyses performed and
   actions taken.

    Management Response

    OFAS management partially concurred with our
    recommendation. Although management agrees that it is
    important to identify and address workforce needs and will
    continue to evaluate its workforce, management states that the
    current team of four is adequate.

    OIG Comment

    Management’s commitment to continually evaluate its
    workforce meets the intent of our recommendation, and we will
    follow up on management’s actions in this regard as our audit
    work on Recovery Act programs continues.

    Management’s response is provided in Appendix 1.

                                 ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Director, at
(202) 927-5784.



Marla A. Freedman
Assistant Inspector General for Audits


Treasury Has Made Progress in Implementing the Specified Energy   Page 8
Property Grant Program (OIG-09-040)
Appendix 1
Management’s Response




Treasury Has Made Progress in Implementing the Specified Energy   Page 9
Property Grant Program (OIG-09-040)
Appendix 1
Management’s Response




Treasury Has Made Progress in Implementing the Specified Energy   Page 10
Property Grant Program (OIG-09-040)
Appendix 2
Major Contributors To This Report




Donna Joseph, Director
Kieu Rubb, Director
Cynthia Milanez, Audit Manager
Erica Wardley, Auditor in Charge
Asha Mede, Auditor in Charge
Chereeka Straker, Auditor
Maurice George, Auditor
Michelle Littlejohn, Auditor




Treasury Has Made Progress in Implementing the Specified Energy   Page 11
Property Grant Program (OIG-09-040)
Appendix 3
Report Distribution




Department of the Treasury

Deputy Secretary
Acting Fiscal Assistant Secretary
Deputy Chief Financial Officer
Office of Strategic Planning and Performance Management
Office of Tax Policy
Treasury Inspector General for Tax Administration

Office of Management and Budget

OIG Budget Examiner




Treasury Has Made Progress in Implementing the Specified Energy   Page 12
Property Grant Program (OIG-09-040)
